1

IN THE SUPREME COURT OF THE UNITED STATES
No.

Henry Eugene Gossage v. Merit Systems Protection Board
CERTIFICATE OF COMPLIANCE WITH. RULE 33.1(g)
I, Henry E. Gossage, pro se veteran, hereby certify that, according to the word-count
tool in Microsoft Word, the Brief of Petitioner consists of 40 pages and 8845 words,
single line with 3 point spacing, Century Schoolbook, 12 point, including footnotes and
excluding the sections enumerated by Rule 33.1(d).
The petition of the lower court text decisions in the Appendix is corrected with
Century Schoolbook 12 point, single line, with 3 point spacing.
The Brief therefore complies with Rule 33. 1(g).

C(
!je0
70:__ _______z

Henry gene Gossage
Veteran Pro Se
clita 12-1 2,o

RECEIVED
JUL 18 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

